No.

In the Supreme Court of the United States

Yarlin Garcia,
Petitioner
v.
United States of America,
Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for
the First Circuit

Appendix

William L. Welch, III
Counsel of Record
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
(Appointed pursuant to the Criminal
Justice Act)

Index of Appendices
Appendix A: Opinion of U.S. Court of Appeals for the First Circuit ........................ A1
Appendix B: Decision and Order of U.S. District Court ............................................ A5
Appendix C: Order of U.S. Court of Appeals for the First Circuit, denying Petition
for Rehearing and Rehearing en Banc ..................................................................... A20
Appendix D: Judgment of U.S. District Court ......................................................... A21

i

Case: 19-1816

Document: 00117682366

Page: 1

Date Filed: 12/16/2020

Entry ID: 6389114

United States Court of Appeals
For the First Circuit
No. 19-1816
UNITED STATES,
Appellee,
v.
YARLIN GARCIA,
Defendant, Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
[Hon. D. Brock Hornby, U.S. District Judge]

Before
Kayatta, Boudin, and Barron,
Circuit Judges.

William L. Welch, III on brief for appellant.
Halsey B. Frank, United States Attorney, and Noah Falk,
Assistant United States Attorney, on brief for appellee.

December 16, 2020

A1

Case: 19-1816

Document: 00117682366

Page: 2

BOUDIN, Circuit Judge.

Date Filed: 12/16/2020

Entry ID: 6389114

The defendant, Yarlin Garcia,

pled guilty to a drug offense, in violation of 21 U.S.C. §§
841(a)(1) and (b)(1)(B), [Add. 16] but reserved his right to appeal
the district court's denial of his motion to suppress the drug
evidence as having resulted from a search unlawful under the Fourth
Amendment.
The drug evidence was obtained from under the hood of a
truck in which Garcia was the passenger.

Law enforcement officers

identified and searched the truck using information supplied by a
cooperator they had seized before searching the truck.
Garcia makes two claims.

On appeal,

First, he argues that the government

lacked probable cause to seize him--officers removed Garcia from
the truck and handcuffed him during the search of the vehicle-and to search the truck.

Second, he argues that the officers also

lacked reasonable suspicion to support their activities.
review of these legal claims is de novo.

Our

United States v. Dion,

859 F.3d 114, 122 (1st Cir. 2017).
Garcia says that the key source that led law enforcement
to Garcia was unreliable.

The government's source was a drug

dealer whom officers apprehended while executing a search warrant
on a house in Sanford, Maine, shortly before interacting with
Garcia.

The dealer ("Cooperating Defendant" or "CD") quickly

agreed to cooperate with the officers.

- 2 -

A2

Case: 19-1816

Document: 00117682366

Page: 3

Date Filed: 12/16/2020

Entry ID: 6389114

Working with the officers, CD provided information that
led to the search of Garcia and the truck.

CD called his drug

supplier, who told CD he would arrive at the house in ten minutes.
Within ten minutes, CD received a call from the supplier telling
CD that the supplier was outside the house and asking CD to move
a red car parked in the driveway.

Law enforcement officials saw

a silver Dodge truck stop briefly outside the Nason Street house
and then drive away.

The truck returned a few minutes later and

stopped directly in front of the house on the public street.
Although

the

officers

suspected

the

truck

was

the

supplier's truck, they were hesitant because CD had told them that
the supplier had driven a dark colored SUV or Jeep in the past.
CD then told law enforcement that the supplier had on occasion
used a Dodge truck or silver truck to deliver drugs.
Ten officers, with their guns drawn, then surrounded the
truck, removed Garcia and the driver from the vehicle, and placed
them both in handcuffs.

A single officer subsequently conducted

a K-9 inspection of the vehicle and the K-9 alerted, indicating
there were drugs inside the hood.

Officers then searched the hood

and found substantial quantities of a heroin/fentanyl mixture and
cocaine.
The

information

CD

supplied

to

law

enforcement

was

consistently corroborated; he told officers that his source was
roughly ten minutes away, and then roughly ten minutes later the
- 3 -

A3

Case: 19-1816

Document: 00117682366

Page: 4

Dodge pulled in front of the house.

Date Filed: 12/16/2020

Entry ID: 6389114

The officers knew that CD was

involved in drug trafficking because they found drugs in CD's Nason
Street residence and consensually read his text messages with his
supplier.
Probable cause only requires "a fair probability that
contraband or evidence of a crime will be found."

United States

v. Simpkins, 978 F.3d 1, 7 (1st Cir. 2020) (quoting United States
v. Almonte-Báez, 857 F.3d 27, 31–32 (1st Cir. 2017)).

By the time

they surrounded the truck, the officers had a tip from a reliable
informant that individuals in the truck were about to complete a
drug sale and that they had drugs in the truck.

No more was needed

to justify the seizure of Garcia and the driver and the subsequent
K-9 inspection.

See United States v. Vongkaysone, 434 F.3d 68,

73–75 (1st Cir. 2006).
Garcia

finally

argues

that

the

officers

lacked

reasonable suspicion to seize him and search the truck, so the
officers' actions cannot be upheld as a valid Terry stop. See Terry
v. Ohio, 392 U.S. 1, 27 (1968).

Reasonable suspicion is a "less

demanding standard than probable cause."

Illinois v. Wardlow, 528

U.S. 119, 123 (2000). In fact, the officers had even more: probable
cause to seize Garcia and conduct a brief investigatory search of
the truck, so there can be no doubt they also had reasonable
suspicion.
Affirmed.
- 4 -

A4

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 1 of 15

PageID #: 201

UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
UNITED STATES OF AMERICA,

V.

YARLIN GARCIA AND
LUIS ROSARIO-DIAZ,
DEFENDANTS

)
)
)
)
)
)
)
)
)
)

CRIMINAL NO. 2:17-CR-100-DBH

DECISION AND ORDER ON MOTION TO SUPPRESS
On March 14, 2018, I conducted an evidentiary hearing on the defendants’
motion to suppress. On March 27, 2018, I heard oral argument on the motion.
There is really no dispute about the underlying facts, although the parties
disagree over their significance and what conclusions I should draw. Based on
the hearing and the arguments, I make the following factual findings, and DENY
the motion to suppress.
FACTS
In June of 2017, MDEA Special Agent Carleton had been surveilling a
target—someone he had arrested a year earlier for drug trafficking who was
released on bail and was under suspicion of additional trafficking. Carleton
tailed the target to Nason Street in Sanford, Maine on June 8 for what Carleton
believed to be a drug pickup.

A5

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 2 of 15

PageID #: 202

On June 19, Carleton arrested him. The target had in his possession 4
fingers (c. 40 grams) of heroin.1 After consulting his lawyer, the target agreed to
cooperate. I shall call him CD1 (for “cooperating defendant”). CD1 gave Carleton
a physical description of his source for drugs, told him where the source lived,
the source’s first name, and a description of his vehicle. CD1 confirmed that the
June 8 trip Carleton had observed was in fact to pick up 200 grams of heroin
from the source on Nason Street, Sanford. He told Carleton that within the
previous months he had observed substantial quantities of heroin and cocaine
at the Nason Street address. He consented to Carleton viewing his cellphone
and identified his source as “Connect” on the cellphone. He also told Carleton
that he believed Connect’s source of supply was a Hispanic male from
Massachusetts.

Carleton photographed the cellphone screen showing text

messages between CD1 and Connect on June 19, admitted as Exhibit 1A. In
one message, Connect said “Ya only hv like 5 could spare right now hopefully
tomorrow be good.” CD1 said that meant Connect had 5 fingers of heroin or
about 50 grams, but was hopeful he would have more the next day that he could
sell to CD1.
Agents obtained a search warrant for the source’s Nason Street premises
from a state judge. On June 20, surveillance of the Nason Street residence
started around lunchtime.
surveillance team.

Task Force Officer Lapierre was part of that

Meanwhile, Carleton instructed CD1 to try to arrange a

transaction with Connect. (CD1 was in custody at Cumberland County Jail, and
Agent Carleton used the term “heroin fentanyl.” I am aware that heroin is sometimes or often
laced or mixed with fentanyl, and apparently the substance the defendants seek to suppress
here is such a mixture. However, I will generally refer to the substances in this case as heroin.

1

2

A6

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 3 of 15

PageID #: 203

Carleton worked with him in the Sheriff’s Office.) Carleton listened to CD1’s
phone calls and photographed the texts between CD1 and Connect. The texts
were admitted into evidence as Exhibits 1B through 1I. In response to a text
from CD1 inquiring whether Connect was “good For 25 instead,” followed by
another text “If not 20 is cool.

Just going through shit quick,” Connect

responded “Ya if he gets here in time,” Ex. 1F, 1G, and later, “Only hv couple
fing[ers] if he don’t show up.” Ex. 1H. Another text said that Connect’s source
was “on way from Connecticut.” Ex. 1E. During one of the phone calls, Connect
referred to the transaction between Connect and his source as for “30 grand.”
Seeing a vehicle with Massachusetts plates arrive at Connect’s residence
in Sanford late in the evening of June 20 and an individual go inside the
residence, agents executed the state warrant, believing that Connect’s source
had arrived. They quickly learned that it was only a teenager who had come to
play video games with another teenager on the premises. But they detained
Connect and he in turn agreed to cooperate. I shall refer to him as CD2. Law
enforcement had no previous dealings with CD2. CD2 told Task Force Officer
Lapierre that he had placed a large order that was going to be delivered to his
house from an out of state source, that the source was close by, arriving in 10
minutes, that CD2 had the money for the transaction, that his source’s vehicle
would pull into the driveway or park immediately in front of the house, that the
drugs would be concealed in the engine compartment, usually in an air vent or
air intake, and that previously his source used a “a dark colored SUV possibly a

3

A7

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 4 of 15

PageID #: 204

Jeep.”2 There was no evidence that CD2 identified the state of registration for
the vehicle his source had driven in the past.
Realizing that CD2’s source had not arrived but that his arrival was
imminent, law enforcement did not have time to search or even secure the
premises, but Maine State Trooper Adam Schmidt did observe heroin fingers in
plain view. Law enforcement then promptly removed their marked vehicles and
left the premises or hid. It was now around 11 p.m. Lapierre stayed in the
basement with CD2. Much of their interaction was recorded and admitted in
evidence as Exhibit 2. CD2 also gave Lapierre access to his cellphone and gave
him the password, and Lapierre accessed previous texts between CD2 and his
source, whom CD2 identified as “B Man” in the texts. The texts were admitted
into evidence as Exhibit 3. The last text message, which CD2 received within
15-20 minutes before Lapierre saw it, referred to 30,850, i.e., a number
consistent with the “30 grand” Carleton had heard Connect mention as the size
of the impending transaction in a phone call between CD1 and Connect/CD2.
At Lapierre’s instructions, CD2 phoned his source using the speakerphone
function.

Lapierre saw that CD2’s source’s cellphone area code was New

Hampshire, but CD2 told him that the source was not from New Hampshire but
from somewhere around Lawrence, Massachusetts. Lapierre listened to the call
on the speakerphone. The source said that he was on the “long road”—which

On his direct examination, Lapierre testified that CD2 said his source used a gray or silver
Jeep. But on cross-examination he agreed that CD2 had described the vehicle as a dark colored
SUV or Jeep. MDEA Special Agent McDonald testified that agents were told it was a black SUV.

2

4

A8

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 5 of 15

PageID #: 205

CD2 identified as Route 202, a back route from Massachusetts through New
Hampshire that avoided the interstate—and that he was 10 minutes away.3
Soon and within the 10 minutes, B Man called CD2 to say that he was
right outside and that CD2 needed to move the red car at the end of the driveway.
Lapierre had observed previously that a red car was parked at the end of the
driveway. CD2 told Lapierre “They’re here. They right f***in’ out front.” Ex. 2.
At the time, law enforcement observed a silver Dodge pickup, which had come
down Nason Street from the direction of Route 202, stop briefly in front of the
house, and then proceed in the direction of Main Street. A few minutes later, it
returned in the opposite direction and stopped directly in front of the house, but
still on the public street, adjacent to the curb. During this short sequence of
events, CD2 told Lapierre that his source had on occasion used a Dodge truck
or silver truck to deliver the drugs, and that this was he.
Lapierre proceeded to order the seizure of the vehicle and its occupants.
Maine State Trooper Adam Schmidt was part of the surveillance team. He
was present both to conduct any necessary traffic stop and, as a qualified K9
handler with his dog Ibo, to conduct a sniff for drugs. After leaving the house
upon discovering that the source had not yet arrived when the state search
warrant was initially executed, Schmidt stationed his marked cruiser on a side
street, out of sight. When he received word to conduct the stop, he activated his
dash camera. The first 30 minutes or so of the resulting video, introduced into
evidence as Exhibit 8, show the takedown and the dog sniff.
The recording shows that Lapierre reported to the other agents waiting for the takedown “Ten
minutes. He says he’s on the long road, so he’s thinking Route 202 . . . he’s saying it’s gonna
be, under the, under the hood.” Ex. 2.

3

5

A9

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 6 of 15

PageID #: 206

There were about 10 agents, all armed with guns drawn. The agents were
shouting as the stop occurred.
Trooper Schmidt approached the driver’s side, ordered the driver (the
defendant Rosario-Diaz) out of the vehicle and, when he did not immediately get
out, pulled him out and in Schmidt’s words “guided him to the ground.” The
defendant’s lawyer had argued in his legal memorandum that the defendant was
“forcibly removed and thrown to the ground,” but there was no testimony to that
effect, only the Trooper’s testimony just quoted. The video shows that Schmidt
did forcibly pull Rosario-Diaz out and onto the ground, but it does not show
violence or excessive force. It shows Schmidt cuffing Rosario-Diaz, patting him
for weapons while he was on the ground, telling him to relax, and finally helping
Rosario-Diaz get to his feet. Schmidt told Rosario-Diaz that he was detained but
did not give him Miranda warnings.
MDEA Special Agent McDonald detained the passenger in the front seat
(the defendant Garcia), told him he was detained and gave him Miranda
warnings.

Garcia declined to talk.

McDonald then turned his attention to

Rosario-Diaz,4 gave him Miranda warnings, and Rosario-Diaz agreed to talk. The
interview was recorded and introduced into evidence as Exhibit 7.
About 17 minutes after Trooper Schmidt’s dash cam was activated,5 and
while Agent McDonald was interviewing the defendant Rosario-Diaz, Trooper

There was a passenger in the back seat of the vehicle, but he/she was not identified to the
court and he/she was not charged.
5 By my reckoning, the trooper’s car starts moving at about 35 seconds into the video; the stop
occurs at about 1 minute; and the dog sniff begins at about 17 minutes and 20 seconds into the
video.
4

6

A10

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 7 of 15

PageID #: 207

Schmidt had his K9 Ibo execute a drug sniff of the vehicle exterior. Ibo alerted
to the presence of drugs near the front of the vehicle, consistent with CD2’s
statement that they were usually hidden under the hood near the air intake.6
Agents raised the hood and discovered large quantities of a heroin/fentanyl
mixture and cocaine.
The vehicle containing the drugs was a rental car from Massachusetts, but
had Maine registration plates. The hearing did not reveal when law enforcement
noticed the Maine plates, but I assume it was immediately (just as they noticed
the Massachusetts plates of the vehicle when the innocent teenager arrived
earlier).7 The rental agreement and bill were admitted as Exhibit 10. Neither
defendant was the renter (there was no evidence of the identity of the renter aside
from the agreement itself), neither defendant was an authorized driver under the
rental contract, and the rental contract was only for June 12-13, not extending
to June 20. The bill shows that the rental was returned on June 27.
The defendants have moved to suppress the drugs, a cellphone discovered
in the vehicle, and Rosario-Diaz’s statements to Agent McDonald.
The government responds that the defendants have no standing, that the
agents had probable cause to seize the vehicle and search its contents, that the
state search warrant separately gave them that authority, that at the very least
they had authority to conduct a Terry stop and a dog sniff, that Rosario-Diaz
was properly Mirandized, and that therefore nothing should be suppressed.

There was no challenge to the dog and handler’s training, credentials, or procedures.
Lapierre who was orchestrating events from the basement with CD2 did not learn of the Maine
plates until “after everything had been taken down.” It is not clear what he meant by that.

6
7

7

A11

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 8 of 15

PageID #: 208

ANALYSIS
Search Warrant

First, I reject the government’s argument that the state search warrant
granted authority to stop and search this vehicle and its occupants.

That

warrant granted authority to search:
Any/all persons present on the premises of [address] Nason
Street in Sanford, ME 04073 at the time of execution of this
search warrant or arriving at the residence or premises during
the execution of this search warrant activities [sic] or
unrelated residents of that building. Including if necessary
strip searches of those individuals except persons present or
arriving in the course o[f] their regular legitimate business.

Ex. 5 (emphasis added). The government maintains that the Dodge pickup and
its occupants “arriv[ed] at the residence or premises during the execution of this
search warrant” within the scope of the authorized search.

That is an

unreasonable reading of the warrant. That reading would justify search of the
occupants of any vehicle on the public road that stopped in front of the house.8
The search warrant application given to the state judge did not provide probable
cause for such a wide scope.
I observe that the warrant was directed first at “persons present on the
premises.”

The addition of those “arriving at” is reasonably interpreted as

meaning those persons who came onto the premises during the execution of the
warrant. That never happened here. These defendants remained inside their

The warrant’s carve-out for persons “present or arriving in the course o[f] their regular
legitimate business” is not a meaningful check on this overbreadth. Anyone not obviously a mail
carrier or delivery person would likely end up detained and searched before law enforcement
could determine whether that person’s business at the scene was legitimate. It is also not clear
from the warrant’s language that the carve-out applies to all searches under this warrant
provision or just to strip searches.

8

8

A12

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 9 of 15

PageID #: 209

vehicle on a public street until the agents forcibly removed them. Moreover, the
warrant’s quoted language on which the government relies as permitting a
search does not even extend to the vehicle, only the persons of those arriving.9
Standing

The Supreme Court has under review a circuit split over standing to object
to a search of a rental car by a driver not named in the rental agreement. United
States v. Byrd, 679 F. App’x 146 (3d Cir.), cert. granted, 138 S. Ct. 54 (2017).
But I need not decide that issue. It is clear that both a driver and passenger
have standing to object to a seizure, i.e., the stop of the car and their persons,
as occurred here. Brendlin v. California, 551 U.S. 249 (2007). The defendants
are arguing that the drugs discovered under the hood should be suppressed
because they are “fruit of the poisonous tree” of the allegedly unconstitutional
seizure of the vehicle and their persons during the takedown. In that respect,
standing is needed as to the constitutional violation, not as to the evidence
derived from that violation, United States v. Olivares-Rangel, 458 F.3d 1104,
1117 (10th Cir. 2006), and these defendants have that standing.
Probable Cause

I am satisfied, however, that law enforcement had probable cause to stop
and search the vehicle and to arrest10 the two defendants once it parked in front
of the house. “Probable cause exists when the facts and circumstances as to

I need not decide whether the rule announced in Michigan v. Summers, 452 U.S. 692 (1981),
permitting law enforcement to detain an occupant of premises for which they have a search
warrant while the warrant is executed, extends to these two defendants who were not occupants
of the premises. As appears below, I conclude that there was probable cause to stop and search
the vehicle and arrest its driver and passengers.
10 Even though the officers referred to it as detention rather than arrest until the dog sniff alerted
them to the presence of narcotics.
9

9

A13

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 10 of 15

PageID #: 210

which police have reasonably trustworthy information are sufficient to warrant
a person of reasonable caution in the belief that evidence of a crime will be
found. . . . [A]ll that is required is the kind of fair probability on which reasonable
and prudent people, not legal technicians, act.” United States v. Dion, 859 F.3d
114, 131-32 (1st Cir. 2017) (citations and quotations omitted).

That “fair

probability” was present here. Law enforcement officers were observing a major
drug distribution transaction as it unfolded in real time, seeing and hearing the
messages of the out of state source as he traveled to and arrived at Nason Street
in Sanford Maine.
The defendants nevertheless challenge probable cause, pointing to the
following:
1.

Law enforcement showed no evidence of the reliability of the two

cooperating defendants or knowledge of their criminal history. They had never
previously worked with CD2.
2.

As events unfolded, the agents first were told that the source

probably came from Connecticut, then saw a New Hampshire area code for
cellphone calls made to him, then were told he was from Massachusetts, but
ultimately stopped a vehicle with Maine plates.
3.

They were told to expect a dark-colored SUV, but this was a silver

pickup.
I deal with the challenges in the same sequence.
The use of informant information to support probable cause depends upon
the “totality-of-the circumstances approach.” Illinois v. Gates, 462 U.S. 213, 230
(1983). I will therefore look at all the circumstances surrounding the information
10

A14

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 11 of 15

provided by CD1 and CD2.

PageID #: 211

I observe first, however, that this is not the

conventional informant case where someone, perhaps anonymously, alerts law
enforcement to illegal activity. Here, Agent Carleton was familiar with CD1’s
involvement in drug trafficking. More important, Carleton caught CD1 in the
midst of a crime and CD1 was striving for favorable treatment through
cooperation and was making statements against his penal interest. What CD1
did thereafter, he did at Carleton’s instruction. As a result, Carleton himself
heard and observed CD2’s willingness to engage in a substantial drug
transaction with CD1. Carleton did not need any other past experience with
CD1 or knowledge of his criminal history to assess the veracity and reliability of
what was being said and happening before him in real time.11 As the court
recognized in United States v. Vongkaysone, 434 F.3d 68, 74-75 (1st Cir. 2006),
statements against interest, the desire for leniency (which will occur only with
accuracy), and corroboration, all can bolster credibility.
The same is true for CD2.

Executing a state search warrant, law

enforcement detained him in a house already identified by CD1 as his source.
Law enforcement had observed CD1 go to that house previously for drugs.
Heroin was in plain view in the house. CD2 agreed to cooperate, hoping for
leniency, and made statements against interest and statements that unfolding
events corroborated. He showed Lapierre the texts between him and his source
and let Lapierre listen to the calls; identified where the source typically hid the
drugs in the source’s vehicle; and told Lapierre that the source liked to park in

I would have to indulge an assumption of an elaborate, pre-arranged setup to discount the
significance of what Carleton saw and heard.
11

11

A15

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 12 of 15

PageID #: 212

his driveway or out front. Agent Lapierre listened to a speakerphone phone call
with CD2’s source, observed texts between them and listened to one end of a
nonspeakerphone call. He learned from the texts that a very large transaction
(at least $30,000 according to what Lapierre viewed in CD2’s texts and confirmed
with him orally, Ex. 2; more precisely, $30,850 according to a text from B Man
to CD2 at 10:32 pm, Ex. 3), with an out of state source was imminent. The
timing of the defendants’ arrival was entirely consistent with the information law
enforcement had obtained. There were no other eligible vehicles in the vicinity.
The source’s request over the phone when he arrived that a red car at the end of
the driveway be moved corroborated previous information.

Under any

reasonable view, law enforcement had every ground to believe that a large
shipment of drugs had just arrived outside the house on Nason Street in Sanford
when the silver pickup pulled up and stopped directly in front of the house and
the phone call came in to move the red car at the end of the driveway. The fact
that law enforcement had never previously worked with CD2 does not eliminate
probable cause given the specificity of CD2’s information, his incentives to be
accurate, and the corroboration of events.12
Any confusion over where the source lived or obtained his drugs does not
diminish the probable cause. CD1 had given only a very vague reference to

Analogously, in United States v. Favreau, __ F.3d __, 2018 WL 1444328, at *1 n.1 (1st Cir.
2018), in dealing with reliability of information from a tipster and the reasonableness of crediting
the tip, Justice Souter said for the court:
[O]wing to the synergy of the content of the tip and the facts that unfolded prior
to and during the stop of [the defendant’s] car, reliability ex ante is not a
significant question here. The content of the tip was significant in making sense
of the other facts recited below, which themselves suggested that the tip might
well be true; all, together, had a degree of coherence that raised a reasonable
suspicion of wrongdoing, which in turn justified the dog sniff that provided the
further fact sufficient for probable cause to search the car.
12

12

A16

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 13 of 15

PageID #: 213

Connecticut and CD2’s text said only that the source was “on way from
Connecticut” in the context of arrival time, not that he lived there; a New
Hampshire area code on a cellphone does not establish residency in today’s
world; CD2 was firm in attributing his source to the Lawrence, Massachusetts
area. The source’s reference to the “long road” and his direction of travel were
also consistent. Given the arrival of the vehicle as predicted, and the request to
move the red car, the presence of Maine registration plates on the vehicle does
not diminish probable cause.13
The model and color of the vehicle that arrived were not consistent with
CD2’s original description of the vehicle his source had used in the past. But
CD2 never said what vehicle would arrive on June 20, and when he learned what
vehicle had in fact arrived, CD2 said that in the past his source had used a silver
pickup. Under the pressure of the circumstances there was no reason for him
to prevaricate. In other words, if law enforcement stopped and searched this
vehicle upon his advice only to determine that it was the wrong vehicle, that
would hardly help CD2. In any case, “an informant’s statements need not be
fully corroborated for an officer to conclude that they are generally reliable.”
Vongkaysone, 434 F.3d at 74 (first-time informant operating at behest of law
enforcement provided mostly accurate details about how the drug deal would
unfold, corroborated in real time by law enforcement, but was wrong about the
make and color of the supplier’s car; probable cause existed nevertheless to

As I said earlier, the evidence does not reveal when the agents noticed the Maine registration
plates. I assume they did not know at the time that this was a rental vehicle. If they had known
that, it would be an additional reason to ignore the state shown on the registration plates.

13

13

A17

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 14 of 15

arrest the supplier).

PageID #: 214

The model and color of the arriving vehicle do not

undermine probable cause here.14
I conclude that at the time of the takedown, law enforcement had probable
cause to stop the vehicle, search it, and arrest the occupants even without the
subsequent dog sniff. See Dion, 859 F.3d at 131 (probable cause needed for
automobile exception to warrant requirement); United States v. Figueroa, 818
F.2d 1020, 1023 (1st Cir. 1987) (probable cause needed for warrantless arrest).
There is therefore no “fruit of the poisonous tree” to suppress.
Terry Stop

If I am incorrect on probable cause, there was certainly enough for a Terry
stop on the reasonable and articulable suspicion standard. United States v.
Chhien, 266 F.3d 1, 5-6 (1st Cir. 2001). Dog sniffs during a lawful stop do not
implicate legitimate privacy interests. Illinois v. Caballes, 543 U.S. 405, 409
(2005).

Police cannot extend a completed traffic stop, absent reasonable

suspicion, in order to conduct a dog sniff, Rodriguez v. United States, 135 S. Ct.
1609, 1614-15 (2015), but here they did have reasonable suspicion and the dog
was on the scene and part of the processing of the stop. Suppression of the
drugs discovered in the vehicle is therefore denied for this alternative reason.

Based on the cross-examination of Lapierre, I thought initially that the defendants were also
challenging probable cause because Lapierre did not identify either defendant’s voice as the voice
he heard earlier on the speakerphone call. As it turns out, they did not make that argument in
their legal memoranda or at the oral argument. In any event, Lapierre testified that although he
heard the source’s voice during one call over the speaker function of the cellphone with CD2, he
did not feel comfortable enough to compare the voices that he heard later from the detained
defendants. Moreover, his hearing of their voices occurred after the stop and is therefore not
relevant to my probable cause determination. Finally, Lapierre did not testify that the voices
were inconsistent, only that he could not be comfortable making an identification given the
limited circumstances of the cell phone call, which the recording shows to have lasted less than
thirty seconds.

14

14

A18

Case 2:17-cr-00100-DBH Document 76 Filed 03/28/18 Page 15 of 15

PageID #: 215

Rosario-Diaz’s Statements

Because there was probable cause to arrest Rosario-Diaz and because he
received Miranda warnings, there is no basis to suppress his statements to Agent
McDonald. The circumstances of his forcible removal from the car and to the
ground are not enough to exclude them, although perhaps a jury will consider
those circumstances in assessing what he said. See United States v. Feliz, 794
F.3d 123, 130-31 (1st Cir. 2015) (“[T]he defendant generally retains the freedom
to ‘familiarize a jury with circumstances that attend the taking of his confession,
including facts bearing upon its weight and voluntariness.’ That is so because
the jury is empowered to ‘assess the truthfulness of confessions’—their
credibility—as part of their decision on ‘the ultimate factual issue of the
defendant’s guilt or innocence.’”) (citations omitted).
CONCLUSION
For these reasons, the defendants’ motion to suppress is DENIED.
SO ORDERED.
DATED THIS 28TH DAY OF MARCH, 2018
/S/D. BROCK HORNBY
D. BROCK HORNBY
UNITED STATES DISTRICT JUDGE

15

A19

RSTUVÿXYZX[X\ÿÿÿÿÿ]^_`aUbcVÿddXXeeX[X[XÿÿÿÿÿfSgUVÿXÿÿÿÿÿÿ]ScUÿhijUkVÿdlmX\mndnXÿÿÿÿÿÿobcpqÿr]Vÿ\sdYdXX

ÿ
ÿ
ÿÿ
ÿ

012345ÿ7383ÿ3494ÿÿ293ÿ32ÿ2ÿ3

4
8

9
ÿ
ÿ
ÿ

ÿ
!"#ÿ$!%!"$&ÿ
ÿ
%''())((&ÿ
ÿ
*ÿ
ÿ
+%,-ÿ.%,/%&ÿ
ÿ
#(0(12314ÿÿ%''())314ÿ
ÿ
ÿ
ÿ
ÿ
5(06(ÿ
ÿ
78362&ÿ/9:(0ÿ;<2=(&ÿ
5<2:1&ÿ->1?9&ÿ!9@'A1&ÿB3>3443ÿ312ÿ53661&ÿ
/:6?<:4ÿ;<2=(Aÿ
ÿ
ÿ
CDEFDÿCÿC0DGÿ
ÿ
"14(6(2HÿI36?9ÿ&ÿJKJÿ
ÿ
!9(ÿ'(4:4:1ÿ06ÿ6(9(36:1=ÿ93*:1=ÿL((1ÿ2(1:(2ÿL>ÿ49(ÿ'31()ÿ0ÿM<2=(Aÿ89ÿ2(?:2(2ÿ49(ÿ?3A(&ÿ
312ÿ49(ÿ'(4:4:1ÿ06ÿ6(9(36:1=ÿ(1ÿL31?ÿ93*:1=ÿL((1ÿA<L@:44(2ÿ4ÿ49(ÿ3?4:*(ÿM<2=(Aÿ0ÿ49:Aÿ?<64ÿ312ÿ
3ÿ@3M6:4>ÿ0ÿ49(ÿM<2=(Aÿ14ÿ93*:1=ÿ*4(2ÿ4934ÿ49(ÿ?3A(ÿL(ÿ9(362ÿ(1ÿL31?&ÿ:4ÿ:Aÿ62(6(2ÿ4934ÿ49(ÿ
'(4:4:1ÿ06ÿ6(9(36:1=ÿ312ÿ49(ÿ'(4:4:1ÿ06ÿ6(9(36:1=ÿ(1ÿL31?ÿL(ÿ2(1:(2ÿ ÿ
ÿ
5>ÿ49(ÿ/<64Hÿÿ ÿ
ÿ
I36:3ÿ,ÿ73@:)41&ÿ/)(6Nÿÿ
ÿ
??Hÿ
O:)):3@ÿ-ÿO()?9ÿ ÿ
+36):1ÿ.36?:3ÿ
;3@:(ÿ,ÿ.<(66(44(ÿ
;<):3ÿIÿ-:'(Pÿ
5(1M3@:1ÿIÿ5)?Nÿ
39ÿQ3)Nÿ
A20

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 1 of 7

A21

PageID #: 359

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 2 of 7

A22

PageID #: 360

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 3 of 7

A23

PageID #: 361

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 4 of 7

A24

PageID #: 362

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 5 of 7

A25

PageID #: 363

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 6 of 7

A26

PageID #: 364

Case 2:17-cr-00100-DBH Document 161 Filed 07/29/19 Page 7 of 7

A27

PageID #: 365

